<html>
<title> - SUDAN AT THE CROSSROADS</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]


 
                        SUDAN AT THE CROSSROADS

=======================================================================

                                BRIEFING

                               BEFORE THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                            JANUARY 18, 2011

                               __________

                            Serial No. 112-1

                               __________

        Printed for the use of the Committee on Foreign Affairs


 Available via the World Wide Web: http://www.foreignaffairs.house.gov/

                                 ______



                  U.S. GOVERNMENT PRINTING OFFICE
64-007                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="6601160926051315120e030a164805090b48">[email&#160;protected]</a>  

                      COMMITTEE ON FOREIGN AFFAIRS

                 ILEANA ROS-LEHTINEN, Florida, Chairman
CHRISTOPHER H. SMITH, New Jersey     HOWARD L. BERMAN, California
DAN BURTON, Indiana                  GARY L. ACKERMAN, New York
ELTON GALLEGLY, California           ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
DONALD A. MANZULLO, Illinois         DONALD M. PAYNE, New Jersey
EDWARD R. ROYCE, California          BRAD SHERMAN, California
STEVE CHABOT, Ohio                   ELIOT L. ENGEL, New York
RON PAUL, Texas                      GREGORY W. MEEKS, New York
MIKE PENCE, Indiana                  RUSS CARNAHAN, Missouri
JOE WILSON, South Carolina           ALBIO SIRES, New Jersey
CONNIE MACK, Florida                 GERALD E. CONNOLLY, Virginia
JEFF FORTENBERRY, Nebraska           THEODORE E. DEUTCH, Florida
MICHAEL T. McCAUL, Texas             DENNIS CARDOZA, California
TED POE, Texas                       BEN CHANDLER, Kentucky
GUS M. BILIRAKIS, Florida            BRIAN HIGGINS, New York
JEAN SCHMIDT, Ohio                   CHRISTOPHER S. MURPHY, Connecticut
BILL JOHNSON, Ohio                   FREDERICA WILSON, Florida
DAVID RIVERA, Florida                KAREN BASS, California
MIKE KELLY, Pennsylvania             WILLIAM KEATING, Massachusetts
TIM GRIFFIN, Arkansas                DAVID CICILLINE, Rhode Island
TOM MARINO, Pennsylvania             VACANT
JEFF DUNCAN, South Carolina
ANN MARIE BUERKLE, New York
RENEE ELLMERS, North Carolina
VACANT
                   Yleem D.S. Poblete, Staff Director
             Richard J. Kessler, Democratic Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page

                                BRIEFERS

The Honorable Princeton Lyman, special advisor for Sudan, U.S. 
  Department of State............................................    10
The Honorable Richard S. Williamson, partner, Salisbury 
  Strategies, LLC (former Special Envoy to Sudan and Ambassador 
  to the U.N. Commission on Human Rights)........................    33
Mr. Omer Ismail, advisor, The Enough Project.....................    42

         LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE BRIEFING

The Honorable Ileana Ros-Lehtinen, a Representative in Congress 
  from the State of Florida, and chairman, Committee on Foreign 
  Affairs: Prepared statement....................................     4
The Honorable Princeton Lyman: Prepared statement................    15
The Honorable Richard S. Williamson: Prepared statement..........    35
Mr. Omer Ismail: Prepared statement..............................    44

                                APPENDIX

Briefing notice..................................................    58
Briefing minutes.................................................    59
The Honorable Donald M. Payne, a Representative in Congress from 
  the State of New Jersey: Prepared statement....................    61


                        SUDAN AT THE CROSSROADS

                              ----------                              


                       TUESDAY, JANUARY 18, 2011

                  House of Representatives,
                              Committee on Foreign Affairs,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 4:30 p.m., in 
room 2172, Rayburn House Office Building, Hon. Ileana Ros-
Lehtinen (chairman of the committee) presiding.
    Chairman Ros-Lehtinen. The briefing will come to order.
    Good afternoon. After my opening remarks and those of my 
good friend, Mr. Berman, the ranking member of the committee, I 
will recognize the chairman-designate and the ranking member-
designate of the Africa, Global Health, and Human Rights 
Subcommittee, Mr. Smith, on our side, and Mr. Payne, for 3 
minutes each.
    We will then move to our panelists' presentations, followed 
by questioning by the members-designate on the Committee on 
Foreign Affairs--and I use that phrase because we are not 
formally organized yet--for 5 minutes each, followed by 5 
minutes each for any other member who would like to ask 
questions of our panelists.
    I appreciate the understanding and cooperation of our 
colleagues and look forward to today's discussion.
    Before we begin, I would like to express what an honor is 
it to assume the responsibilities of chairman of the House 
Committee on Foreign Affairs.
    For the Members who will be joining the committee upon 
organization, please know that I do not take those 
responsibilities lightly. During the 112th Congress, this 
committee will be confronted with some of the most pressing 
national security and foreign policy challenges of our time, 
from ensuring rigorous enforcement of sanctions against Iran, 
to providing effective stewardship of American taxpayer dollars 
in foreign aid and State Department programs, to instituting 
systems for accountability at the United Nations. I fully 
intend to work with all members of the committee and the 
American people to confront these challenges directly, 
responsibly and effectively.
    It is therefore fitting that the first Members' briefing 
hosted by this committee would be focused on Sudan. Today, 
Sudan is truly at the crossroads. Beginning on January 9th, 
millions of South Sudanese participated in a historic 
referendum to determine whether Africa's largest country would 
remain united or split in two. Given the countless delays, 
manipulations and violent eruptions that have imperiled 
implementation of the Comprehensive Peace Agreement for Sudan 
over these past 6 years, many doubted that this day would come. 
Yet the vote proceeded peacefully and credibly.
    After decades of repression by a genocidal regime in 
Khartoum and a war that left over 2 million people dead and 4 
million people displaced, the people of South Sudan may at last 
have realized their right to self-determination.
    Unfortunately, the hardest work is yet to come. First, the 
results must be certified and accepted. Though Khartoum has 
pledged to accept the outcome, it has a long history of 
reneging on its commitments. The stakes are high, and both 
sides have spent the past 6 years preparing for war.
    Second, outstanding issues relating to the implementation 
of the CPA must be resolved prior to conclusion of the 
transition period in July 2011, including the demarcation of 
the border; citizenship and nationality; wealth sharing and 
resource management, including for oil and water; division of 
assets and debt; currency; and security arrangements.
    Third, the future status of the oil-rich Abyei region must 
be resolved fairly and in a transparent manner. Abyei is a lit 
match in a pool of gasoline, and continued failure to resolve 
its status all but guarantees war.
    Likewise, the popular consultations in Southern Kordofan 
and Blue Nile must proceed in a manner that legitimately 
addresses longstanding grievances. These areas are awash with 
weapons, and tensions are high. A single security incident 
could set the entire region ablaze.
    Finally, we must not trade peace in Darfur for independence 
in the South. Regrettably, it appears the administration may 
have forgotten key lessons from the past. Prior U.S. efforts to 
reward the Sudanese regime for signing peace agreements and 
acceding to the deployment of peacekeepers while the regime 
simultaneously supported genocide in Darfur, blocked 
humanitarian access, and stalled implementation of the CPA were 
broadly condemned.
    In the words of then-Senator Barack Obama in April 2008, 
and I quote,

        ``I am deeply concerned by reports that the Bush 
        administration is negotiating a normalization of 
        relations with the Government of Sudan. This reckless 
        and cynical initiative would reward a regime in 
        Khartoum that has a record of failing to live up to its 
        commitments.''

    Yet the Obama administration is following the same 
misguided concessions-driven path. I do not intend to minimize 
what has been accomplished inside Sudan. Delivering a timely 
credible referendum was an incredibly hard task. But, again, 
the referendum is just the start.
    The true test of the regime's commitment will extend far 
beyond the July 2011 date, and far beyond South Sudan. Thus, I 
am deeply troubled by the premature efforts to advance 
normalization, sanctions relief, and debt relief. The bulk of 
sanctions mandated by Congress are linked to peace in South 
Sudan and in Darfur. Given recent developments in Darfur, the 
certification requirements for easing sanctions cannot be met.
    I am particularly concerned by suggestions that the 
administration may remove Sudan from the State Sponsors of 
Terrorism List by July 2011. Removal from this list is not a 
``gold star'' that can be offered to advance an unrelated 
political objective. This is a serious matter with 
repercussions that directly impact our most vital national 
security interests.
    Recall that the previous administration delisted North 
Korea in exchange for nominal concessions relating to one 
nuclear facility. Almost immediately upon winning this prize, 
North Korea reneged on its promise to implement a transparent 
verification regime, withdrew from the Six-Party Talks, and 
brazenly resumed its proliferation activities. Today, North 
Korea reportedly possesses one or more highly sophisticated 
uranium enrichment facilities and, according to the United 
Nations, is supplying Iran, Syria, and Burma with nuclear and 
ballistic missile related equipment. The U.S. must proceed with 
extreme caution in our dealings with the Sudanese regime.
    The potential birth of a new nation in South Sudan is truly 
momentous and will have significant ramifications beyond the 
region. The United States has played a major role in bringing 
the parties to this point, and it is in our national interest 
to see that the process advances peacefully.
    The risks are high. The challenges are daunting. But the 
achievement of peace in a region ravaged by war is an honorable 
endeavor. I welcome the opportunity to work with the 
administration and responsible partners for peace in Sudan 
toward this end.
    I now turn to our ranking member, Mr. Berman, for his 
opening remarks.
    [The prepared statement of Chairman Ros-Lehtinen follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Mr. Berman. Well, thank you, Madam Chairman. And thank you 
very much for calling this timely briefing.
    I want to begin by congratulating you on your new position 
as chairman.
    I would also like to congratulate the new subcommittee 
chairs.
    And I really do look forward to working with all of you in 
the 112th Congress.
    And at the outset, I would also like to commend the Africa 
Subcommittee Ranking Member Donald Payne and other members on 
both sides of the aisle for their leadership on Sudan, 
especially their efforts to focus the world's attention on the 
unspeakable atrocities committed by the Khartoum regime against 
the people of South Sudan and Darfur.
    Their work on these critical issues inspired two major 
pieces of legislation, the Comprehensive Peace in Sudan Act of 
2004 and the Darfur Peace and Accountability Act of 2006, along 
with a number of resolutions condemning the regime for crimes 
against humanity.
    Madam Chairman, this past week marked a historic moment for 
the people of South Sudan who fought a 22-year civil war to 
arrive at this moment of self-determination. While we do not 
know the official results of the referendum, it is clear that 
the vote will almost certainly result in independence for the 
South.
    And as we consider this milestone, it is important that we 
remember the late President John Garang Mabior, who led the 
Sudan People's Liberation Movement and Army through the long 
civil war, a terrible conflict that resulted in the deaths of 
over 2 million South Sudanese and the displacement of millions 
more. Before his tragic death in a helicopter crash in July 
2005, Garang negotiated the Comprehensive Peace Agreement with 
Khartoum. That agreement provided for the referendum and other 
events we will examine today.
    After his election in 2008, President Obama undertook a 
bolder view of U.S. policy toward Sudan and set out a new 
vision focused on intensive diplomacy. This new strategy 
required significant changes in behavior by the Khartoum 
government. It demanded verifiable progress toward a settlement 
between the North and South, as well as progress in Darfur.
    The President's new approach was met with great skepticism 
by many of us in Congress and the advocacy community in part 
because it required direct engagement with a Sudanese 
Government that had committed genocide and other gross 
violations of human rights.
    To carry out the new policy, President Obama appointed 
retired Air Force General Gration as special envoy to Sudan. 
Gration, the son of missionaries who was raised in Congo, 
assembled a team and developed a diplomatic strategy to realize 
the President's vision.
    Our first witness today, Ambassador Princeton Lyman, also 
deserves great credit for his diplomatic efforts to complete 
the roadmap that helped deliver Khartoum's final cooperation on 
the CPA and the referendum.
    Today we can see the results of the Obama administration's 
hard work. The voting for the referendum has taken place 
peacefully, and a major goal of the Comprehensive Peace 
Agreement has been achieved.
    There are, of course, many, as the chairman said earlier, 
many outstanding issues to resolve before independence is 
finalized in July. A referendum on the status of the oil 
producing Abyei region has yet to take place. An agreement 
needs to be reached on the sharing of oil revenue, the division 
of national debt, the delineation of borders.
    There is also the thorny issue of citizenship. Should the 
South vote to form a new independent state, there are fears 
that southerners in the North and northerners in the South 
could be left stateless and vulnerable to political violence.
    Finally, there is the crucial issue of peace in Darfur 
which still eludes us today. We must not forget the enumerable 
atrocities that have taken place in that region of Sudan. In 
2004, Congress and the Bush administration declared that the 
events in Darfur constituted genocide. And in 2008, the 
International Criminal Court indicted Sudanese President Omar 
Hassan al-Bashir on three counts of genocide, five counts of 
crimes against humanity, and two counts of murder.
    I am encouraged that President Obama has remained focused 
on Darfur and intends to revive the stalled negotiations 
between Khartoum and the rebel groups in Darfur.
    The people of South Sudan have taken a major step toward 
self-determination, but there are many difficulties ahead. The 
new nation will face a large number of challenges, from 
building the basic institutions of statehood to economic 
development to the reintegration of the returnees. And by all 
accounts, there is very little capacity in South Sudan to meet 
these daunting challenges. If South Sudan is to flourish, then 
the United States, the United Nations and other members of the 
international community must continue to assist the people of 
that nation in their transition to independence and democratic 
rule.
    In this context, it is important to recognize the Herculean 
efforts of the United Nations Development Programme to help 
make the referendum a reality. The UNDP supported voter 
education, delivered ballots for more than 4 million voters on 
schedule and helped to establish and equip nearly 3,000 
registration centers and trained over 8,000 staff to manage 
those centers. These efforts and the efforts of U.N. 
peacekeepers in South Sudan underscore the extent to which the 
U.N.'s work can support U.S. foreign policy interests and 
contribute to international peace and security.
    Madam Chairman, we would not be where we are today in South 
Sudan without hard-nosed American diplomacy, the active 
involvement of the United Nations, and targeted U.S. foreign 
assistance programs. I look forward to the testimony of our 
witnesses.
    Chairman Ros-Lehtinen. Thank you, Mr. Berman.
    I would like to recognize for 3 minutes the chairman-
designate of the Africa, Global Health, and Human Rights 
Subcommittee, Mr. Smith of New Jersey.
    Mr. Smith of New Jersey. Madam Chair, thank you very much.
    And I want to begin by joining the ranking member, Mr. 
Berman, in congratulating you on assuming the chairmanship of 
this very important committee, particularly at this very 
difficult time around the world.
    There are crises everywhere, and we look forward to, all of 
us on this side of the aisle and I am sure on the other side of 
the aisle as well, in working with you and finding tangible 
solutions to the many vexing problems we face.
    So congratulations, Madam Chair.
    I also want to thank you for calling this extremely timely 
and important briefing to examine the historic events occurring 
in Sudan. I congratulate the Southern Sudanese people and join 
in in celebrating the completion of the referendum on the 
future status of their country. The U.N. monitoring panel of 
the referendum's assessment that the process was well organized 
and credible is particularly commendable given the serious time 
and resource constraints that preceded it.
    However, the voting last week marked over the beginning of 
what promises to be a long process fraught with peril. It will 
take several weeks for the votes to be transmitted from the 
nearly 3,000 referendum centers to county and state levels and 
on to Juba and Khartoum before the official results are 
announced.
    If the South has voted for secession, as is widely 
believed, then numerous complicated and potentially volatile 
issues remain to be resolved. Among the most prominent of these 
issues is the demarcation of the border, including the division 
of the Abyei region with its oil reserves and fertile land. The 
sharing of oil reserves as well as debt and the question of 
citizenship are some of the other major challenges still to be 
addressed. And the establishment of a permanent peace in Darfur 
remains a critical but elusive goal as violence intensifies 
despite the current talks in Doha.
    I personally am concerned about the return of reportedly 
large numbers of southerners residing in the North to the 
South. I was informed during a hearing in September that 
humanitarian agencies at that time were not prepared to handle 
mass movements in Sudan. Unless this assessment has changed, 
such movements could lead to a severe humanitarian crisis and 
have a destabilizing security impact on the South.
    Those southerners who remain in the North against their 
will is another deeply troubling concern. Beginning in the 
1980s, Arab militias armed by the Khartoum regime conducted 
slave raids in the South, taking mostly women and children to 
the North to serve as labor and sex slaves. The 2005 
Comprehensive Peace Agreement failed to address this issue, and 
an estimated 35,000 southerners remain in the North in a state 
of forced servitude. This grave human rights issue must be 
acknowledged as a priority and the freedom of all slaves 
immediately secured.
    Finally, I look forward to hearing the briefers' views as 
to what the impact the referendum will have on the North, again 
assuming a vote for independence. The Government of Sudan, to 
its credit, allowed the referendum to proceed and has publicly 
stated that it will respect the outcome. But given its abysmal 
track record, it is not a basis for optimism.
    I thank you, Madam Chair.
    Chairman Ros-Lehtinen. Thank you, Mr. Smith.
    I would like to recognize for 3 minutes the ranking member-
designate of the Africa, Global Health, and Human Rights 
Subcommittee, Mr. Payne.
    Mr. Payne. Thank you very much.
    And let me commend you for your ascension to the chair of 
this committee.
    Mr. Berman.
    And let me thank you for holding this very critical meeting 
on Sudan being the first hearing, and I think it is 
appropriate.
    Let me also express my deep appreciation to the witnesses, 
who are certainly among the most knowledgeable people on Sudan: 
Ambassador Lyman, who did a great job in Nigeria and South 
Africa during critical times; Special Envoy Williamson with the 
State Department and U.N. posts, who was a great envoy to 
Sudan; and Mr. Ismail, who fled from Darfur and has been a 
great advocate for justice.
    Let me thank all of you for your commitment and self-
determination to make this day a reality. Today Sudan is indeed 
at the crossroads. A week-long referendum has just concluded. 
And by all accounts, the outcome is clear that the people of 
South Sudan have chosen independence.
    My friends on the ground during the voting process have 
relayed stories of remarkable moments that illustrate the hope 
and excitement that lies in the heart of the South Sudanese. A 
policeman, after voting, looked around and told people in line, 
``I crossed the river, come join me.'' A pregnant woman while 
in line to vote gave birth and was later able to cast her vote 
for the sake of her new baby.
    As I reflect on the 20 years that I have been working with 
Sudan, I remember many pivotal moments, moments of my own and 
the Congress' struggle to see the people of South Sudan 
exercise their right of self-determination. I recall my first 
visit in 1993 to Nimule, a town near the Ugandan border, which 
was the frontline of the struggle back then, helped mediate 
negotiations between two factions of the SPLM. It was then that 
I first met Dr. John Garang in the bush, father of South 
Sudan's quest for autonomy, as well as a young military 
commander, Salva Kiir, who was there at his side, who is now 
the President of the Government of South Sudan. Upon returning 
from that trip, I, along with other members, introduced a 
resolution in the House calling for the right of self-
determination for the people of South Sudan, and it passed this 
body.
    I recall over a dozen visits to South Sudan and the Darfur 
refugee camps in Chad and with Representatives Lee and Wolf and 
Tancredo, along with Senator Feingold, Senator Frist, Senator 
Brownback, all dedicated members of this institution at the 
time. After one such visit in 2004, I sponsored a resolution to 
call the world's attention to the atrocities in Darfur which 
passed the House overwhelmingly, the first time that the 
Congress recognized ongoing genocide while it was going on.
    I recall visits to Nairobi and Naivasha in 2004 and 2005 
with IGAD and a negotiation that culminated in the signing of 
the CPA on January 9, 2005, in Nairobi where I witnessed that.
    I will ask that the rest of my statement be added to the 
record since the gavel has been hit.
    But I do agree that the Abyei, I believe, should be solved 
before sanctions are released. We see what has happened in 
India with Kashmir still a question. We don't want Abyei to be 
a question 20 years from now with fighting going on. Thank you, 
and I yield.
    Chairman Ros-Lehtinen. Thank you so much.
    As the new members will know, it is embarrassing to gavel 
down the gentlemen from New Jersey--and both gentlemen from New 
Jersey, because they are the leading experts when it comes to 
Africa.
    So we are well-served by having Chairman and Ranking Member 
Smith and Payne with us.
    I am sorry, gentlemen, for the time restraints.
    As Mr. Payne said, we are very privileged to have two 
distinguished panels before us today. I know everyone is 
anxious to hear what they have to say. They are the experts. So 
I will only offer brief introductions and encourage members to 
read their biographies in full in your packet.
    We will begin with Ambassador Princeton Lyman, who has just 
returned from observing the referendum process in Sudan. The 
Ambassador was appointed by Secretary Clinton in August 2010 to 
lead the U.S. Negotiation Support Unit in Sudan. Prior to his 
appointment, he was serving as an adjunct senior fellow for 
Africa Policy Studies at the Council on Foreign Relations and 
as an adjunct professor at Georgetown. He has a long, 
distinguished career in government service, including postings 
as deputy assistant secretary of state for Africa, U.S. 
Ambassador to Nigeria and South Africa, and assistant secretary 
of state for international organization affairs.
    The Ambassador has a Ph.D. in political science from 
Harvard University and has published numerous books and 
articles on foreign policy, African affairs, economic 
development, HIV/AIDS, U.N. reform and peacekeeping.
    Ambassador Lyman, the floor is yours. Thank you, sir.

STATEMENT OF THE HONORABLE PRINCETON LYMAN, SPECIAL ADVISOR FOR 
                SUDAN, U.S. DEPARTMENT OF STATE

    Ambassador Lyman. Thank you very much, Madam Chairman.
    Thank you and the members, ranking member, Congressman 
Berman, and all the members here for holding this hearing and 
making this one of the very first issues of your chairmanship 
and of the committee this year.
    As you said, this is a terribly important issue. I recall 
Prime Minister Meles at the U.N. meeting on Sudan in September 
saying--and here is a man who faces a lot of crises in his 
neighborhood--saying that the peace process in the Sudan was 
the most important in all of Africa. And it is an indication of 
how widespread the implications are of having peace in that 
area.
    Thank you also for the work that Congress has done on this 
issue, all the members, the legislation, et cetera. It has made 
an extraordinary difference to send a message to the people of 
Sudan how much the United States cares, not just about the 
politics and the strategic aspects of it, but the welfare of 
the people who have suffered from war during this long period 
of time.
    We had a good week, Madam Chairman. We had, as you 
described and Congressman Berman and others have, a referendum 
that even a month or 2 ago we doubted could come off this well. 
And it came off peacefully, and all the observer missions, 
whether the Arab League, the Africa Union, the U.N., the NDI or 
others, all saying this was a credible, fair, effective 
referendum.
    It took a lot of work, a lot of diplomatic work, a lot of 
wonderful work by the United Nations. And USAID assembled an 
extraordinary team of IFES, NDI, IRI, the Carter Center, all 
working together to give the Southern Sudan Referendum 
Commission the technical support it needed against all the odds 
to be ready on January 9th to pull this off.
    So there was a lot involved here, and a lot of people 
deserve credit. But as you said in your opening statement, this 
is just one step there is a lot of hard work left to go.
    One of the issues, and Congressman Payne emphasized this 
and others have as well, is Abyei. Abyei is a deeply difficult 
emotional issue in Sudanese politics and in its history. Even 
during the referendum, we had instances of violence in that 
area that was finally brought under control with the help of 
the U.N. and the meeting of the parties, and there was an 
agreement signed this past weekend that should permit the 
beginning of the migration security for it and other 
arrangements should contain the situation. But the underlying 
issue of the future of Abyei remains a very critical one.
    It is an issue that probably can only be solved at the 
level of the Presidents, of President Bashir and President 
Kiir, and we hope that action will resume on those negotiations 
very shortly after the referendum. There are other processes. 
There are the popular consultations that are very important in 
Blue Nile and South Kordofan. I am happy to say that the 
consultations have started in Blue Nile. I will be visiting 
that area next week to witness some of those consultations. And 
we hope South Kordofan will be able to start soon after the 
elections in that state.
    And as you have all said, there are a whole range of issues 
that the two parties now have to get down to work and solve by 
July. The relationships between what looks like now two 
independent countries, but who share so much interdependence. 
As you know, much of the oil is in the South; much of the 
infrastructure for exporting it and refining it is in the 
North. People live along that border, some 30 percent of the 
population, and they go back and forth all the time.
    There needs to be a solution to the oil sector, to 
citizenship issues, to what those parties have called soft 
borders and how they will operate, security arrangements, 
currency, et cetera. A lot of work has been done. A lot of 
technical work has been done. But now the political work has to 
start on bringing these issues to a head.
    Now, you have mentioned the question of our relationship to 
Sudan and particularly to the Government of Northern Sudan, and 
it is a very important issue. Part of the discussions that have 
been going on for the last month is how the U.S. relationship 
with Northern Sudan played into the negotiations. There was a 
very strong feeling that until there was some sense of our own 
relationships with the Sudan and the future of Sudan, there 
would be an obstacle there to the negotiations themselves.
    But something equally important that I have discovered in 
my time there--I have met with leaders of the opposition in the 
North. I have met with women's groups and youth groups, and 
what I find is that the people of Northern Sudan are terribly 
worried about the outcome of the CPA. They feel that they are 
going to be abandoned. They feel that it will lead to war. They 
feel that it will lead to economic deprivation, and they want 
to know what the future is for them once the South is gone. And 
that is an important concern, because instability in the North 
or chaos in the North is not going to be any more in our 
interest than chaos in the South.
    There also has to be political transformation of the North. 
That is part of the dream, if you will, the objective of the 
CPA, and it hasn't really happened. So we want to be engaged in 
the North. We want it to be successful and strategically 
stable, and we want to see prosperity for the people there.
    We have put down a roadmap for normalization with Northern 
Sudan after the CPA. And I can assure you that it is based on 
actions; it is not based on promises. The first step only comes 
after the government accepts the results of the referendum. And 
the step there, as the President said in his letter to Senator 
Kerry, which Kerry--Senator Kerry presented to the Sudanese, 
was that the President would begin the process of withdrawing 
Sudan from the list of States Sponsoring Terrorism. But they 
would have to meet all of the conditions under that law, and 
they would also have to complete the negotiations which you 
have all well described for the remaining balance of the CPA. 
And there has to be progress toward peace in Darfur.
    So before we can even complete that process and certainly 
before we would come to Congress and discuss the possible 
lifting of sanctions, steps would have to be taken, concrete 
steps by the North. In the meanwhile, a great deal has to be 
done on helping Southern Sudan. It is an area, as all of you 
know, devastated by war, extraordinarily poor with almost no 
infrastructure to speak of. You fly over Southern Sudan, you 
see very little agricultural activity. You see almost no roads. 
You have a very low educational base and a thin administrative 
structure.
    A lot of donors are working on that problem. We are the 
major donor. Our technical assistance this past year to the 
Government of Southern Sudan is about $430 million. Other 
donors are contributing just under $700 million to developing 
the capacity of the South. A lot of countries are involved. 
Kenya is the biggest trainer of technical personnel. The U.K., 
the European Union, Norway and others and China has begun a 
development program in the South. It is going to be a long, 
hard struggle for the South to meet the expectations of its 
people.
    We have done a lot and we will continue to do a lot to 
build up their capacity, their ability for conflict resolution 
within the South, their ability to deliver in education, health 
and the other areas of which their people expect.
    Now, Darfur is not my brief. General Gration, and he 
apologizes for not being able to within you today. He was just 
in Darfur this past week and he is joined now by another 
colleague of mine, Dane Smith, who will be working on Darfur in 
the same way that I have been working on the North-South. But I 
don't want anybody to get the impression that the 
administration is either forgetting Darfur or sacrificing 
Darfur to the CPA. In fact, there is a good deal of interaction 
in Sudan between the two. There has to be peace in both places 
for Sudan, North and South, to succeed.
    I am not the expert on Darfur, but I know that work is 
underway to try and bring peace to strengthen UNAMID, to 
increase access for the humanitarian organizations and, above 
all, to get a credible peace process. And I am sure General 
Gration would be happy to brief you on all of that.
    Let me just conclude on one issue raised by Congressman 
Smith, a very important one about which we were very concerned, 
and that is the condition and the future for the southerners 
living in Northern Sudan. There are quite a few, as you know, 
estimates of as many as 1.5 million. Since the beginning of the 
CPA in 2005, 330,000 people have returned to South Sudan. Just 
since last August, 150,000 have returned and more are returning 
all of the time.
    What we found was that the process was erratic, not very 
well planned and the states in the southern part of Sudan not 
prepared to receive them or get them to places where they could 
earn a livelihood. So we have worked now, we and the U.N., to 
try and regularize that process. We went to Government of 
Sudan, and we said, we need access to all the places where the 
southerners live in the North. We didn't have that access 
before. We have it now. We and the U.N. and international 
agencies can now go visit the southern population in the North, 
find out what they are planning. UNHCR is going to begin a 
registration process and try to make more orderly the process 
of departure.
    Second, we are working with the government in the South to 
come up with more realistic timetables and plans for absorbing 
that many people in what is a very poor area. So I just wanted 
to assure you that this is an issue high on our list. And we 
have been given assurances, but we will monitor it very 
closely, that there will be no reprisals against those people.
    But it does raise one final issue that you all have 
mentioned, and that is the citizenship issue. Because the 
question is what happens when the South becomes independent to 
southerners living in the North or northerners living in the 
South. The Government of Sudan, the Northern government, the 
NCP, has said they will not support dual citizenship for 
everyone, and that is a right of a government to say that. But 
what we and others have argued is--and both sides have agreed 
in principle--that you cannot create a situation of 
statelessness for anyone.
    Therefore, there has to be a period of transition during 
which Southern Sudan develops its own rules, regulations and 
procedures for citizenship and then southerners who so wish can 
access that citizenship if they choose. This is a very 
important issue both for the stability of the country and in 
terms of basic human rights. And it is one of the critical 
issues still to be negotiated.
    I will stop there, Madam Chairman. I am happy to answer 
questions.
    [The prepared statement of Mr. Lyman follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Chairman Ros-Lehtinen. Thank you so very much.
    Excellent testimony. We will begin our question and answers 
now.
    But I just want to remind our members, pursuant to 
longstanding committee practice, I will be recognizing you by 
seniority for those who are here when I make the sound of the 
gavel, and then by order of arrival for those who arrive after 
the gavel. So there is an incentive to get here on time, boys 
and girls.
    And I am pleased as punch to have so many members of our 
freshman class on our committee. To make a public declaration 
of how pleased I am, I randomly chose among the wonderful 
freshmen members of our committee Mr. Duncan's name. So I will 
yield my time, my question-and-answer time, to Mr. Duncan from 
South Carolina.
    Mr. Duncan is recognized.
    Mr. Duncan. Thank you, Madam Chairman.
    Ambassador Lyman, thank you for coming to address the 
committee today about Sudan, and I just have a few questions 
because we are concerned about terrorism in the world. We are 
concerned about national security. And can the administration 
credibly certify to Congress that Sudan has permanently ceased 
support for fellow State Sponsors of Terrorism, including Iran 
and Syria, and designated foreign terrorist organizations, 
including Hamas?
    Ambassador Lyman. Excuse me. First, Madam Chairman, I 
forgot. I submitted a fuller statement for the record if that 
is okay.
    Congressman, that will be part----
    Chairman Ros-Lehtinen. Without objection. Thank you.
    Ambassador Lyman. Thank you very much.
    That will be a part of this process that would begin, and 
it is a process whereby the relevant agencies and the United 
States Government would be examining that.
    I think the requirement is to look at it over a 6-month 
period to make sure that Sudan would meet all of the criteria 
under the law regarding counterterrorism.
    That process hasn't yet begun because the President hasn't 
announced it, because it is conditional to even begin that 
process based on the acceptance of the results of the 
referendum.
    But I assure you that that will be done and that the 
administration will then consult with Congress on the results 
of that review.
    Mr. Duncan. Just a follow-up. What do you make of the 
independent or open-sourced reports that Iranian arms transited 
Sudan en route to Hamas and the Gaza strip? Can you help with 
that?
    Ambassador Lyman. I cannot comment on that, Congressman. 
But I can assure you that those are the kinds of issues that 
will be looked at in this review process.
    Mr. Duncan. Are open-source reports of Bashir's strong 
relationship with Hamas leadership inaccurate?
    Ambassador Lyman. I am afraid I am not in a position to 
comment on that. I, again, say that the agencies in the U.S. 
Government are going to examine all of that as a part of this 
process. I apologize that I am not in a position to comment on 
that information which our agencies will have to determine and 
verify.
    Mr. Duncan. We look forward to the time that you can 
comment on that. Thank you.
    I yield back my time, Madam Chair.
    Chairman Ros-Lehtinen. Thank you very much. Thank you for 
that maiden voyage.
    Welcome to all of our wonderful freshmen.
    I would like to yield 5 minutes to our wonderful ranking 
member, Mr. Berman.
    Mr. Berman. Thank you, Madam Chairman, and I will follow 
your lead, and I am going to yield my 5 minutes to the 
tentative and I think soon-to-be ranking member of the Africa 
Subcommittee, the long-time chair of that subcommittee and, to 
a great extent, one of my key mentors on the issue of Sudan, 
Mr. Payne.
    Chairman Ros-Lehtinen. Mr. Payne is recognized.
    Mr. Payne. Thank you very much, Mr. Chairman, for yielding.
    Ambassador Lyman, the AU was very involved in this IGAD, 
which is, as most of us know, the East African 
Intergovernmental Authority on Development, which has several 
East African countries, about six or seven, Kenya, Uganda, et 
cetera. And they were very involved, as you know, actually in 
the negotiations in Naivasha. How strong do you believe that 
the AU and IGAD will remain in Sudan as they move forward to 
the more difficult times?
    Ambassador Lyman. I think the roles are going to be 
different. The Africa Union is now charged with overseeing the 
post-referendum negotiations over the issues we talked about. 
And the high-level panel that the AU has created to do this is 
headed by former South African President Thabo Mbeki and then 
with former Burundian President Buyoya and former Nigerian 
President Abubakar. And they have a staff and have overseen the 
structure of the negotiations. I am happy to say that we in the 
U.N. worked very, very closely with them. We are official 
observers in those discussions and worked very closely with 
them on the negotiations.
    IGAD now plays I think a different and more political role. 
The IGAD summit some weeks ago was a very important step in 
confirming assurances from the Government of Sudan about the 
referendum and proceeding with the CPA. They are not as active 
as they used to be in Naivasha and elsewhere in the actual 
negotiations.
    Mr. Payne. How do you see the--as we know, Abyei is 
certainly a very difficult issue to confront. But also, as you 
know, the Blue Nile and the Southern Kordofan states have also 
some question about where they really belong. What is your take 
on those two states?
    Ambassador Lyman. Well, the CPA did not see the popular 
consultations as the same as for Abyei. Abyei was accorded the 
right of self-determination to see whether they wanted to be 
part of the North or the South. That is not included in the 
terms of reference for the popular consultations. What the 
popular consultations are supposed to do for those two states 
is to determine how the CPA has affected them and how their 
relationships, both internally in the state and with Khartoum, 
should take place. They are more like if--if I can describe it, 
good governance consultations, rather than self-determination 
consultations.
    And what we are pleased about with Blue Nile is the 
tremendous amount of interest taking place as those 
consultations get underway. People are coming forward. Civil 
society is coming forward, and they will look very carefully at 
both the governance of the state and the way the central 
government impacts on their lives.
    As you know, elements in those states fought on the side of 
the SPLM, but they live in the North. And they are part of the 
North. So the question really that is being posed is, what kind 
of political structure will we be seeing in the North that 
accommodates their interests and the interests of everyone else 
in the North?
    Mr. Payne. And the final question about Egypt and the Nile, 
Egypt can be very, very constructive, or they can be very 
destructive. And they have changed roles during this whole 
conflict. The Nile is something that Egypt feels concerned 
about. How do you think the negotiations regarding Egypt and 
the North and other countries will go on the Nile?
    Ambassador Lyman. I think it is not a secret that Egypt was 
very concerned about the whole self-determination vote and the 
implications of it. But toward the latter part of the year, 
Egypt became very supportive. And just prior to the referendum, 
President Mubarak, along with President Gaddafi, came and urged 
the government to go ahead and go through with the referendum 
and follow the dictates of the CPA. And I think the attitude of 
Egypt is that they are going to work with the new Government of 
Southern Sudan.
    Now, water, as the chairwoman said, is one of the issues to 
be negotiated, how the water is managed, the Nile, which cuts 
through both Southern and Northern Sudan, are going to be 
managed, access to water, amounts of water. Those negotiations 
have not gotten very far, and they will be important, and 
clearly Egypt will be watching them very closely.
    Mr. Payne. Thank you very much.
    Chairman Ros-Lehtinen. The chairman-designate of the 
Africa, Global Health, and Human Rights Subcommittee, Mr. Smith 
from New Jersey, is recognized.
    Mr. Smith of New Jersey. Thank you.
    And, Mr. Ambassador, thank you for your extraordinary 
service and your leadership. Let me ask a couple of questions.
    First, you mentioned the first step beginning the process 
of removing Sudan from the State Sponsors of Terrorism List. 
Ambassador Williamson and I--we were serving with him at the 
U.N. Human Rights Commission when it was a commission in 
Geneva. And he led the effort on getting the focus on genocide 
being committed in Darfur, did an outstanding job doing it. He 
makes a point in his testimony that the--you must make that 
determination purely on the merits, not tilted to some other 
political considerations. And based on what you said, it sounds 
like that is the process you are going to pursue, but I would 
just like to hear you say it in your own words or further 
elaboration.
    Secondly, churches play a key role, perhaps even a central 
role in the provision of humanitarian and development aid and 
in promoting dialogue and mediating crises. Will the faith-
based sector in the new Republic of Southern Sudan, if that is 
what emerges here, receive a significant amount of money to 
immediately have a high impact on health care delivery and the 
like?
    Thirdly, the ICC chief prosecutor said that Bashir may have 
skimmed upwards of $9 billion. Is that true? What do we know 
about that?
    And finally, I mentioned in my opening about the 35,000 
southerners who remain in the North in forced servitude. In the 
mid-1990s, I held a hearing on slavery in Sudan, was roundly 
criticized when I had it. And I can tell you by whom if you 
ask. Roundly criticized. But we brought out the point--and I 
even had a woman, a mother who told the harrowing story of how 
they broke into her home, stole her son, kidnapped her son, 
gave him an Islamic name, and then he became part of a slavery 
regime. What are we doing about that?
    Ambassador Lyman. Thank you very much, Congressman. On the 
first question, with regard to the State Sponsors of Terrorism, 
first and foremost, they have to meet all of the conditions 
under that law. So it has to be on the merits of that.
    But secondarily, we have also said that the final step has 
to be in the context of they are also meeting the conditions of 
the CPA.
    So it is, first and foremost, they have to meet those 
criteria. And then, second, when we would take the step would 
be when they have also--if they meet all those criteria, that 
they would also have to meet the criteria under the CPA.
    On churches, I don't know of the exact plans on USAID, but 
I will say this, they play an extraordinarily important role in 
Southern Sudan, as you know. And they have been very important 
in conflict resolution, and I think they will play a major role 
in the development side. There is no question it is one of the 
elements of society.
    I will just take a second to say something that has 
bothered me about the peace process; it has not been terribly 
transparent. That is, it has been carried on--and we are part 
of this, too--between two parties, but civil society hasn't 
been brought in very much. I think now, as we move forward, 
there must be much broader transparency and involvement of 
civil society in what comes next, and that very much includes 
the churches.
    On the $9 billion, I have seen the accusation. I haven't 
seen the proof, so I cannot say.
    On slavery, it is a very, very bitter memory for people who 
suffered that. That includes some people in the Abyei area.
    Clearly, the independence of the Southern Sudan, if that is 
what the vote will show, may alleviate that problem and other 
security steps, but clearly, that has to go if it exists 
anymore. But the memory is there, and I know people who have 
spoken to me about the bitterness that they feel about it.
    Mr. Smith of New Jersey. Finally, let me ask one final 
question with my time. Are there sufficient resources available 
at the UNHCR, as well as within our own Government as well as 
other contributors, to assist the southerners in the North to 
register them, as you said, to mitigate the incidents of 
retaliation? And what kind of numbers are we talking about in 
terms of funds?
    Ambassador Lyman. The Southern Sudan Government talks about 
another--or up to 500,000 people coming. So that would be 
another 350,000. We have made it a very, very strong part of 
our diplomacy with the North that no retaliation or violence 
takes place against the southerners in the North. We have been 
back to them on this over and over and over again. And so far, 
that has been--they have respected that. And they claim they 
will respect it.
    But the future of those people in terms of citizenship and 
economics, et cetera, is still an important consideration. Now, 
UNHCR is just beginning, really, now that it has access to 
start to register people, et cetera. There is sufficient 
international stocks of emergency supplies to handle people 
when they come south, let's say to get 3-month supply of food, 
et cetera.
    The problem is how well these people can be integrated for 
long-term development because some of them aren't farmers; they 
haven't been farmers, et cetera. And this is something we have 
under discussion now with the Government of Southern Sudan and 
how our development programs can help in that regard. That, to 
me, is becoming the most serious challenge. So far, we have 
been able to work in the North without any retaliation against 
those people.
    Chairman Ros-Lehtinen. Thank you so much.
    I am pleased to yield to the gentleman from New Jersey, my 
good friend, Congressman Sires.
    Mr. Sires. Thank you, Madam Chair, and congratulations.
    Ambassador Lyman, as I listen to you, I sense hope in your 
voice that this is going to succeed.
    But as I listen carefully to what you say to me--excuse me, 
to the committee, I am not as optimistic. I mean, there is no 
infrastructure, no help, no way of feeding. There is a 
referendum governing one end of the country. What can we--what 
steps can we take to continue to encourage the peace?
    And I worry, when you split these countries--we don't have 
a good experience in Korea still. The tensions are still there. 
And I worry when all this money comes in to try to help, I look 
at Haiti and the lack of infrastructure. Sorry, but you sound 
optimistic, but I am not as optimistic as you are, and I do 
hope that we can continue--we have so many years of war, that I 
do hope that this leads to a peaceful future. Can you just tell 
us what we can do?
    Ambassador Lyman. You caught me on a good week. A couple of 
months ago, I was much less optimistic, and I am very 
encouraged that this referendum has come off and what I think 
it signifies for the future.
    But I wouldn't underestimate the problems ahead. Look, 
there are several different peace problems. One is peace in the 
South itself, where there have been clashes in the past, 
proxies supported by the North, et cetera. Now, we are working 
hard to build up their security capability. By that I mean 
their ability to manage conflict, to manage local issues, 
communicate better, coordinate better, et cetera.
    Lots of people--lots of countries along with us are 
training people, et cetera. President Kiir has promised a very 
inclusive political process in the future for a new 
constitution in the South. He must follow that path. Otherwise, 
there will be dissension, and there will be trouble.
    I am reasonably optimistic that they will rise to the 
challenge. But I think it is going to be a good long struggle.
    The other danger is in the continuing tensions that will 
exist from time to time between the North and the South. One of 
the points we have emphasized so much to both sides in the last 
few months is, don't support proxies; that is, that the North 
doesn't support proxies in the South and vice versa, that the 
South doesn't support proxies in Darfur or someplace else. It 
is a very important part of keeping peace, and they have got to 
resolve their tensions in other ways.
    I think that the hope for peace in the area comes from 
their inevitable interdependence, whether it is in the oil 
sector, it is the trade sector, et cetera. Both sides need each 
other right now, and both sides now are not interested in going 
back to war. And we can build on that, and they can build on 
that. It is not going to be perfect, and there are going to be 
crises, and there are going to be threats. But I guess I am 
more optimistic now than I was a few months ago.
    Mr. Sires. And the other issue that I have a concern of is, 
you talked about the oil. Obviously, the oil is in the South, 
and the North is going to feel that they have been excluded of 
its wealth. I just don't see them sitting back and saying, 
well, you had this referendum; you keep the oil, and I will 
stop the water from going South.
    Ambassador Lyman. Actually, their leverage is greater 
because all the pipelines to export the oil are in the North. 
So what they have had to do--and the Norwegians have been 
extremely helpful in this regard, in laying out all of the 
complexities of how two countries with shared resources can 
work out a fair compensation. During the CPA, they split the 
oil revenues 50/50. But that was temporary. Now there is a 
question of whether the South will keep that ratio, whether 
they will pay a fee for the use of the pipelines, et cetera. 
Those are the details they have got to work out now. But they 
kind of need each other on the oil.
    And the other thing which is very important--and, again, we 
are grateful to the Norwegians for this analysis--that oil 
isn't that great. Over the next 5 years, it will decline 
substantially in output. Both sides have to develop an economy 
that is less dependent on oil. And that is an important reason 
for them to turn their attention away from war.
    Chairman Ros-Lehtinen. The chairman-designate of the 
Oversight and Investigations Subcommittee, Mr. Rohrabacher of 
California.
    Mr. Rohrabacher. Thank you very much, Madam Chairman.
    And, Mr. Ambassador, what is the population of Sudan, both 
North and South?
    Ambassador Lyman. Oh, I was afraid you were going to ask me 
that. It is about 8 million in the South.
    Mr. Rohrabacher. And what is it in the North?
    Mr. Lyman. 38 million overall, thanks to Rich.
    Mr. Rohrabacher. I see.
    Ambassador Lyman. 38 million overall, about less than a 
third in the South.
    Mr. Rohrabacher. And I will tell you, when I worked in the 
White House, he had all the answers, as well. I just want you 
to know that.
    Ambassador Lyman. Yeah.
    Mr. Rohrabacher. So 38 million all together. And how much 
have we spent in Sudan?
    Ambassador Lyman. Since the CPA, overall, for all 
expenditures, peacekeeping and everything else, we have spent 
$10 billion.
    Mr. Rohrabacher. How much?
    Ambassador Lyman. $10 billion.
    Mr. Rohrabacher. We have spent $10 billion.
    Ambassador Lyman. Much of that for peacekeeping and relief 
because of the wars and the displacement, et cetera.
    Mr. Rohrabacher. Right.
    Ambassador Lyman. But that is the figure over----
    Mr. Rohrabacher. Now, is that just us or is that the 
overall spending? We have spent $10 billion or----
    Ambassador Lyman. No, we, the U.S.
    Mr. Rohrabacher. We. And how much has been spent then? We 
have spent $10 billion. How much have the other philanthropists 
of the world spent?
    Ambassador Lyman. They have contributed--of course, the 
peacekeeping, they contribute toward a formula in the U.N.
    Mr. Rohrabacher. Right.
    Ambassador Lyman. There is a formula that they always 
contribute to.
    Mr. Rohrabacher. Okay.
    Ambassador Lyman. On the economic side, I know, for 
example, that other donors have been doing about $700 million a 
year in the South.
    Mr. Rohrabacher. Uh-huh.
    Ambassador Lyman. I don't have the figures for what they 
are doing in Darfur. I can try and get those for you.
    Mr. Rohrabacher. Okay. But your guesstimate would be that 
we are the biggest contributor and almost 50 percent, maybe, of 
what has been spent has been from us?
    Ambassador Lyman. We are clearly the largest donor, and I 
will try to get you more accurate percentages.
    Mr. Rohrabacher. Okay. Now, what a fortuitous day for you 
to be testifying because President Hu from China has just 
arrived. And I was wondering how much the Chinese have actually 
contributed to this effort.
    Ambassador Lyman. Well, the Chinese, of course, as members 
of the Security Council, pay whatever their share is of 
peacekeeping costs as permanent members of the Security 
Council. They also have begun a development program in the 
South. They also contribute a fair number of peacekeepers to 
the U.N. peacekeeping force. We don't contribute soldiers; they 
do.
    Mr. Rohrabacher. Right.
    Ambassador Lyman. They have some engineering companies, et 
cetera, in the peacekeeping operation.
    They are, of course, as you know, big investors in the oil 
industry in Sudan.
    Mr. Rohrabacher. Right. But you don't know what they have 
spent. And I think that is significant because it is my 
understanding that the Chinese perhaps are benefiting greatly 
by their association with the government in the North and et 
cetera.
    Ambassador Lyman. There is no question that oil has been a 
successful investment for them. But now that the oil lies 
largely in the South, they understand that they have to develop 
relationships in the South, as well. And they are beginning 
development programs, road programs, health programs, et 
cetera, in the South.
    Mr. Rohrabacher. Let me just note that--now, first of all, 
do you believe that the Chinese have played a positive role in 
Sudan? Is that what you would tell us today, that, by and 
large, the Chinese have played a positive role there over the 
years?
    Ambassador Lyman. I think they are playing a more positive 
role now than they played before, to be perfectly candid. I 
think they were very resistant, as you well know, in the U.N. 
to sanctions on Sudan. And so there is a history there.
    Mr. Rohrabacher. And they were opposed to the sanctions----
    Ambassador Lyman. They don't participate----
    Mr. Rohrabacher. Excuse me one moment, but they were 
opposed to those sanctions because they had a direct 
relationship with the tough guys who were running the country. 
Isn't that right?
    Ambassador Lyman. Yeah.
    Mr. Rohrabacher. And the guys who signed contracts for who 
gets to benefit from the oil.
    Ambassador Lyman. Right. There is no question about that. 
Now, more recently--and they do most of their diplomacy behind 
the scenes. They don't work in concert with the rest of us 
envoys who meet all the time.
    They have done some facilitation on the peacekeeping side. 
They contributed peacekeepers. And they have been supportive 
now of the referendum process. They have been openly supportive 
of that and, as I said, starting to do more in the South.
    Mr. Rohrabacher. Okay. I only have about 30 seconds left, 
and let me just note that we are entering a new era in 
government. We can no longer afford to have a trillion-and-a-
half-dollar deficit. We figured that will destroy our country. 
And especially if we are going to be investing $10 billion in a 
country with 38 million people--$10 billion for 38 million 
people--and then see that another country, perhaps our economic 
adversary, like China, is benefiting greatly from our 
investment. Those are the things we need to pay attention to, 
and we will be.
    Thank you, Madam Chairman.
    Chairman Ros-Lehtinen. Thank you so much.
    And because the ranking member had given his time to Mr. 
Payne, now Mr. Payne is recognized, as the ranking member-
designate of the Africa, Global Health, and Human Rights 
Subcommittee, for his questions.
    Mr. Payne. Thank you very much. I am doing better under 
this new setup than I did under my own.
    Mr. Rohrabacher. Well, let's discuss that later.
    Mr. Payne. Let me continue, I think, on the China 
discussion. As you indicated, China was very, very noninvolved, 
as you know. And there were several meetings that were held 
with the Chinese. The Congressional Black Caucus actually met 
with the Ambassador and, kind of, had a pretty tough meeting 
with them, and they asked for a second meeting. They had never 
been to Darfur. They were still selling weapons. They just had 
no interest in the problems of Sudan.
    I had the opportunity to go to Beijing, and the second-in-
command of the Government of China asked the question in the 
Great Hall, once again, about what were they going to do. Since 
then, as you have mentioned, they have sent people to Darfur, 
they have started participating in U.N. peacekeeping.
    How do you think China will react and do you think they 
will be a true neutral party as this process moves forward?
    Ambassador Lyman. I think the Chinese will have--you know, 
I don't want to speak for them really, but they have a stake in 
the oil sector. They have a stake that those are Chinese 
companies that own a good deal of the infrastructure, as well 
as their share in the oil industry. They are very concerned 
about that. They want to make sure that whatever is worked out 
between the two entities on oil protects those interests. And, 
of course, they import oil from Sudan, so they want the 
stability of supply.
    I am pleased that they have begun development programs in 
the South. I think that is very important. I think we need 
every donor we can to help in the South.
    How they will progress in their relationship between the 
two it is a little hard for me to predict. Obviously, they will 
want to have relations in both countries to pursue their 
interests.
    Mr. Payne. Now, in the South, the South has the potential 
of a great agricultural program if they get going. At one time, 
Sudan was the breadbasket of all of Africa--and with the oil. 
Are we looking at developing, helping them develop that 
agricultural sector as we move forward?
    And, secondly, what does Khartoum have left? What will 
their major resources be? Are they industrializing and 
manufacturing?
    Ambassador Lyman. There was a conference in Nairobi some 
months ago in which the U.S. was a major participant--General 
Gration was there and others--just on agricultural development 
in the South.
    It will have to be a major focus of their development 
efforts. They have this potential, but it is just not being 
realized at all. So that has to be a major part of their 
economic development, no question about it. You go to Juba now, 
and all the fruits and vegetables are coming from Uganda. You 
know that the potential isn't being realized.
    In the North, they, too, have to develop the agriculture 
sector. They import a lot of food, which they shouldn't. And 
they are now turning more attention and investment to the food 
sector, knowing their oil revenues are going to go down, that 
they have extraordinary economic potential. They are getting 
investment from Arab countries in the agriculture sector. And I 
think that is going to be one of the major areas they look to, 
as well.
    Mr. Payne. Yeah. There is a lot of new technology on 
getting water out of the desert now.
    I have agreed to yield the balance of my time back to the 
ranking member, who I think has a question he would like to 
ask, Mr. Berman.
    Chairman Ros-Lehtinen. The ranking member is recognized.
    Mr. Berman. I thank you, Mr. Payne, and you, Madam 
Chairman.
    And I just wanted to thank you, Ambassador. I was sitting 
here, thinking. I came to Congress 28 years ago. You were a key 
figure in the Africa Bureau at that time, during some 
incredible times--the fight against apartheid, the other 
conflicts in Africa going on--the role you played there; and, 
later on, Ambassador to South Africa and the new South Africa; 
the leader of our refugee programs during some of the most--I 
am sure Mr. Smith remembers those years in Southeast Asia and 
in Africa, former Soviet Union, the places--you worked there; 
your role before that at USAID, assistant secretary for IO, 
serving both Republican and Democratic Presidents.
    You really do give the term ``diplomat'' a great name with 
your stellar service. That you would come out of the academic 
world--I don't know if that is retirement--but to take this on 
is a great tribute to you. Thank you.
    Chairman Ros-Lehtinen. Thank you so much, Mr. Berman.
    Ambassador Lyman. You are very kind, Congressman. Thank you 
so much.
    Chairman Ros-Lehtinen. Thank you.
    Now I am pleased to yield to the chairman-designate of the 
Terrorism, Nonproliferation, and Trade Subcommittee, Mr. Royce 
of California.
    Mr. Royce. Ambassador Lyman, you have a long association 
with these problems on the continent of Africa. And we have 
many NGOs who are here today, as well.
    One of the things that comes with that experience of long 
being engaged with these types of regimes is that it gives you 
an important historical check on your assumptions going forward 
and, in particular, in dealing with Khartoum, which has broken 
promise after promise.
    When dealing with somebody like Bashir, who is in power not 
because he is a peacemaker, but because he is the most 
ruthless; when looking at that situation--and I have seen 
firsthand the result of that ruthlessness in Sudan, in Darfur, 
Sudan. I remember we had a ``Nightline'' camera crew we took in 
to interview some of the survivors of an attack. And I remember 
a town, Tina, that had been bombed from the air. That was not 
an attack by the Janjaweed. Those were Antonovs that bombed 
that town. I remember interviewing a young man who had lost his 
hand. He had lost his hand to the Janjaweed, but with his other 
hand he was able to draw pictures, as other kids did, of these 
Antonovs that had bombed their village, and of mechanized armor 
that was from the Khartoum government there to support the 
Janjaweed in the attack.
    So, in looking at this, the NGO community, I think, is very 
hesitant to reach assumptions that all is going to end well. 
And, in one particular regard, there is an issue that all of us 
are concerned about, and it has to do with that issue of the 
state sponsor of terrorism list. Joseph Kony of the Lord's 
Resistance Army could not have abducted 10,000 children and 
abused so many over the last 20 years and made child soldiers 
out of them without the armaments he got from Khartoum, and 
without being able to send his fighters up to Khartoum to be 
patched up without the support that he had. And they didn't 
allow people to go into South Sudan to take him out when we had 
the opportunity to do it.
    So the question I have is, have you made it very clear to 
Khartoum that any support for the LRA would prevent them from 
being taken off the terrorism list and, basically, that for 
you, this is a red line? That is my question.
    Ambassador Lyman. I would say categorically we have said 
that. Any support of them by proxies or other such entities 
would preclude our following through on that.
    Mr. Royce. Very good.
    Ambassador Lyman. And, in general, I would say, in dealing 
with the regime, the way forward is for them to understand that 
this is the way for them to go forward because it is worse for 
them if they don't, in terms of peace, in terms of any thoughts 
of prosperity.
    Mr. Royce. And that is logical. But then we have the 
historical record, and we have the fact that, for 10 years, 
between 1994 and 2005, Sudan is the only documented supporter 
for the LRA. And we have a U.N. report last November that LRA 
commanders reached out to Sudan's military in Darfur for 
support. Now, we don't know much more than that, other than 
that that happened.
    Would the State Department certify to Congress that there 
are no links between the government in Khartoum and the LRA 
before taking them off the terrorism list? I guess that is a 
little harder question.
    Ambassador Lyman. It is a harder question, and I will get 
you a definitive answer because I have to talk to the people 
who do that kind of analysis.
    But I can tell you this. I have discussed personally--and I 
know General Gration has--the LRA with the government and made 
it very clear that any support to the LRA would be an obstacle 
to normalization of relations with us. That is a terrible 
group. That is a horrific group.
    Mr. Royce. Yeah, it is the most horrific group, probably, 
on the planet.
    Ambassador Lyman. Right.
    Mr. Royce. And the fact that the Khartoum government would 
support--Ambassador Lyman, thank you for your service.
    Chairman Ros-Lehtinen. Thank you so much.
    The gentleman from Florida, my good friend, Mr. Rivera.
    Mr. Rivera. Thank you very much, Madam Chairman.
    Ambassador, in our administration's enthusiasm to engage 
local authorities and roll out basic materials and services as 
a conflict-mitigation strategy, have appropriate safeguards to 
prevent waste, fraud, and abuse been implemented?
    Ambassador Lyman. One of the things we are working on most 
intensely with the government in the South, which is where most 
of our development assistance is going, is exactly that--that 
is, to get good financial controls, good budget controls, et 
cetera. And we don't put money through the government without 
those kinds of assurances. So we are watching that very 
closely. This is a young government in the South, and getting 
better controls, better financial controls is one of the top 
priorities.
    We are also doing that at the state level, because 
resources have to be sent down to the state level. So we are 
working with the state governments in the South to make sure 
they have those controls in place. And we will continue to do 
that.
    Mr. Rivera. Thank you very much, Mr. Ambassador.
    A couple of other questions. What is the status of the S/
CRS flyaway teams that have been deployed to South Sudan? And 
what are they doing exactly?
    Ambassador Lyman. Those teams are out visiting and staying 
in areas throughout the South to be able to get an 
understanding of whether there are conflicts developing in the 
South, whether the state governments are capable of dealing 
with them, so that proper assistance and responses can be made.
    It is kind of an extended outreach for the United States to 
know what is happening out there, to make sure that the 
potentials for conflict in the South, which are serious, are 
being addressed, that we know what is happening, that we have 
good information. And they have been effective over these last 
couple months.
    Mr. Rivera. If you could drill down on that just a little 
bit further, what types of program funds are they 
administering? To what end? Are they implementing directly? Are 
they employing contractors or providing budget support to local 
institutions?
    Ambassador Lyman. They are only providing information. It 
is up to USAID and other programs to then help with those 
states and help in their security. The flyaway teams are 
information-gathering teams.
    Mr. Rivera. A few governance questions. Is the 
administration planning to certify that an elected government 
has taken office to justify removing restrictions on U.S. 
assistance to Sudan under section 7008 of the State Foreign 
Operations and Related Programs Appropriations Act of 2010 as 
carried forward?
    Ambassador Lyman. Assuming that they voted for secession, 
they will not become fully independent under the CPA until 
July. And then, of course, we would have to have legislation 
with the Congress that would authorize assistance to that 
entity. We don't have to do it right away because independence 
becomes official at the end of the CPA.
    Mr. Rivera. Will the Secretary of the Treasury also be 
moving to make such a certification to provide debt relief to 
the regime?
    Ambassador Lyman. Debt relief is--there are sanctions 
against our supporting debt relief. And it depends on how the 
debt is divided, also, between the North and the South. If some 
of the debt is assumed by the South and they become an 
independent entity--and I would want to consult with the 
Congress closely on this--we could support the South in doing 
that.
    But any general debt relief, assuming that the North 
carries much of that debt--there are sanctions. And they would 
have to be removed for us to support action on debt relief for 
the North.
    Mr. Rivera. Thank you, Madam Chair. I yield back the 
balance of my time.
    Chairman Ros-Lehtinen. Thank you very much. The gentleman's 
time has expired.
    And now I would like to yield for our last--no, we still 
have one more--the gentleman from Ohio, Mr. Chabot, who is the 
chairman-designate of the Subcommittee on the Middle East and 
South Asia.
    And thanks for subbing for me this weekend, Mr. Chabot.
    Mr. Chabot. Happy to do it, Madam Chairwoman. I appreciate 
the opportunity to do that. And you are loved down there, there 
is no question about that. So we appreciated filling in for 
you.
    Mr. Ambassador, thank you for your time here this 
afternoon. And I know you have answered a lot of questions, so 
just a couple that I have.
    Relative to the referendum, and assuming that it goes the 
way that virtually everyone believes that it will and that the 
vote in the South is to essentially secede, could you--and I 
know you have already talked about this to some degree, but 
could you discuss again what mechanisms are expected to take 
place relative to the oil revenues and wealth sharing and that 
sort of thing in the disputed areas?
    Ambassador Lyman. The two entities face some choices on how 
to handle the management of the oil sector. One is to create a 
joint management of the sector. I don't think that is going to 
happen, but that is one option out there.
    Another is to have the South take an equity position in the 
infrastructure in the North so they are part owner, as well, 
and the economics works out that way.
    A third option is simply for the South to pay a fee for 
transporting the oil through the pipelines. And there are a 
number of variations on this, all of which--I owe what limited 
knowledge I have of this to the Norwegians, who have laid this 
out in great detail for the two parties.
    So they will choose among these potential ways of 
cooperating, and then the political decision is, how much does 
the South pay to the North? Is there a premium for peace, to 
put it bluntly, in what they pay? And that is going to be the 
political side of the negotiation.
    On the other issues, there are working groups on all the 
other issues looking at them technically. For example, on 
currency, if both countries move to a new currency, how do they 
do it very carefully, not to destabilize the other? Because you 
could do that. And they have agreed in principle that they 
won't destabilize each other, but then the question is, what is 
the timing? How do they do it in the proper way? So there is a 
working group on that.
    And similarly on borders, there is a working group, 
although, again, the decisions there are very political, 
because there are five disputed border areas. Most of the 
border is agreed, but five areas are disputed, and they haven't 
agreed on how to solve the dispute. And that is now a major 
issue to be resolved.
    Mr. Chabot. Thank you.
    And then on another area, Mr. Ambassador, I was here for 14 
years and then gone the last 2, and so I have gotten a little 
behind in some of these things over the last 2 years. But I 
have been to the Darfur region on two different trips, one to 
the refugee camps in Sudan and then to the refugee camps in 
Chad. And, at the time, things seemed to be simmering down 
somewhat, to the extent that the Janjaweed attacks had been, 
shall we say, limited compared to the way they had been 
previously, although many people were still in the camps.
    Has there been any progress in the people moving out of the 
camps and back to their villages, or is it too dangerous in 
most places for that to occur?
    Ambassador Lyman. Again, I have to apologize because Darfur 
isn't in my brief. I don't have the up-to-date details.
    I don't think there has been a lot of movement in that 
regard. There was some violence very recently between the South 
African--Sudan Armed Forces and one of the rebel groups that 
displaced a lot of people additionally.
    But I would defer to General Gration when he is here and my 
colleague Dane Smith to give you a more accurate up-to-date. I 
apologize that Darfur I am not as sharp on.
    Mr. Chabot. That is quite all right, Mr. Ambassador. Thank 
you very much for your time.
    I yield back the balance of my time, Madam Chair.
    Chairman Ros-Lehtinen. Thank you so much, Mr. Chabot.
    And the gentleman from Pennsylvania, Mr. Marino, which is a 
much revered name in Miami, yields his time. And we thank you 
so much because we are so short of time.
    So we are going to say, thank you very much, Mr. 
Ambassador, for your time. Get back to work. We are going to 
shoo you out of there.
    I am going to welcome Ambassador Richard Williamson and 
Omer Ismail to our panelist table. And I am going to give you 
the briefest of introduction. Gentlemen, I am going to be 
ruthless with my gavel because we want to get to the question-
and-answer period. So, as you settle in, let me introduce you.
    Ambassador Williamson has served as the President's special 
envoy for Sudan and as the U.S. Representative to the United 
Nations Human Rights Commission, where he pressed for the 
adoption of a resolution condemning the atrocities in Darfur, 
in conjunction with the United Nations commemorations of the 
10th anniversary of genocide in Rwanda.
    Welcome, Mr. Ambassador. And I know that your book is here 
floating about.
    And Omer Ismail--thank you so much, Omer. You are so loved. 
A humanitarian, human rights activist, working with numerous 
organizations to stop genocide and mass atrocities. Mr. Ismail 
was born in Darfur but was forced to flee Sudan in 1989.
    Thank you gentlemen both for being here. I will gavel you 
down in 5 minutes so we can get to our question-and-answers 
because we have votes on the floor in a little bit. Thank you.
    Ambassador Williamson, if you could start.

  STATEMENT OF THE HONORABLE RICHARD S. WILLIAMSON, PARTNER, 
 SALISBURY STRATEGIES, LLC (FORMER SPECIAL ENVOY TO SUDAN AND 
       AMBASSADOR TO THE U.N. COMMISSION ON HUMAN RIGHTS)

    Ambassador Williamson. Thank you very much, Madam 
Chairperson, and congratulations on that. Good to see Ranking 
Member Berman again. And I have to note, Don Payne has spent 
more time working on Sudan than any other American leader, and 
we are all in his debt. And, as Congressman Smith said, we have 
worked together in the past. It is good to be good with you 
again.
    I think in Sudan you have to first start with the fact that 
there has been marginalization for 200 years that has resulted 
in discrimination--discrimination economically, educationally, 
health, politically, injustice. And that permeates the country, 
and that creates instability. And the South is only a small 
part of the story.
    Second, we have to recognize that, unfortunately, in Sudan, 
it is too common that the political leaders feel comfortable 
resorting to violence as a legitimate way to pursue their 
political objectives and engage in their atrocities.
    And, thirdly, we have to recognize the nature of the 
regime. The vote is a shining moment. The Sudan people deserve 
most of the credit. The international community--U.S. brokered 
the CPA, President Bush. And while I have criticized President 
Obama and his administration, they deserve credit for their 
initiative over the last 4 months, the diplomatic surge, which 
was extremely helpful.
    But the vote is not the end of the story. It may not even 
be the beginning of the end of the story. The contested border 
areas, Abyei, oil revenue sharing, and citizenship are not just 
the headlines of issues. It is the fundamental dispute which, 
over 6 years, have been known. For 6 years, Khartoum has 
blocked progress on those issues. And for the last 6 months, 4 
months notwithstanding, the initiative, little substantive, 
particularized progress has been made.
    Fourth, my experiences of the CPA, the regime in Khartoum 
breaches commitments. Look at just the CPA. They agreed to 
abide by the Abyei Border Commission. It made its 
determination. The South accepted it; the North refused. They 
agreed to abide by the permanent arbitration court in The Hague 
in its determination of the border. That process went forward. 
The South accepted it; the North refused. In the CPA, the North 
agreed to disarm and demobilize their militias; they did not. 
They committed to transparency in oil revenue sharing and 
accounting; they did not.
    It is important to recognize that incentives alone are 
inadequate, promises are illusory, and incentives without 
steel, without some threat of coercion, have proven a failure 
in the past, and they will let down the Sudanese people again.
    Underlying all this, what is the U.S. goal? In 2005, it was 
in part the separation, and we paid for that. It would be 
overpaying now to say that because haltingly, imperfectly, in a 
delayed manner and having cost many lives, that we should now 
be overly generous for the performance of commitments made. The 
marginalization continues, the injustices continue, atrocities 
continue.
    The week before the vote began in the referendum, 18 bombs 
dropped in the South. The U.N. certified that they were from 
the Sudan Armed Forces. And the South is not the only area 
subjected to this. Darfur and the Nuba Mountains cannot be 
separated. We should not rush to give benefits.
    The nine neighbors and China have not been helpful, but we 
have reached a tipping point where they see that separation is 
going to happen, so they have been, on the margins, helpful. 
They can do more. The administration has tried to encourage it. 
They should. There is an enormous development challenge, but it 
has to have burden sharing, and the European Union and others 
have to increase their participation.
    I am concerned about a process that begins in a litany of 
incentives before performance, before specific agreements, 
before verification mechanisms are put in place, before there 
is monitored results. As Ronald Reagan used to say, ``Trust but 
verify.'' I am concerned about it, and I fear, once again, the 
Sudanese people will be denied what they need.
    Thank you, Madam Chairperson.
    [The prepared statement of Mr. Williamson follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Chairman Ros-Lehtinen. Thank you so much. Thank you.
    Mr. Ismail?

   STATEMENT OF MR. OMER ISMAIL, ADVISOR, THE ENOUGH PROJECT

    Mr. Ismail. Congratulations and thank you, Madam Chair. And 
thanks to the esteemed members of your committee. I will get 
down to it.
    The United States has a crucial role to play in laying the 
groundwork for peace and stability in Sudan from this moment 
forward. The Southerners have come out. They cast their vote. 
They are going to decide their destiny, which is going to be 
the separation from the mother country of Sudan. But, as 
everybody agrees, including President Obama in his op-ed in the 
New York Times, that the work is just beginning.
    So the United States should capitalize on this current 
momentum in Sudan to address three crucial issues that will 
establish peace and stability in all of Sudan and the 
neighboring countries in the region.
    First, the relationship between North and South Sudan must 
be clarified before secession formally takes place in July. 
This involves detailing the economic arrangements between North 
and South after separation, the legal status of populations in 
both the North and the South, as well as resolving the status 
of contentious border areas. Without agreement on these issues, 
anxieties on the ground and among the leadership of both 
governments have the potential to spark violence.
    Second, the conflict in Darfur must be reprioritized. An 
inadequate peace process has trickled along for years while 
violence has intensified in recent weeks. Now is the time to 
revitalize the Darfur peace process, one that has inched along 
for years with very limited effect on the ground in Darfur.
    Number three, at a time when political changes will be 
underfoot in both the North and the South, the U.S. should 
press both governments toward inclusive governance and 
pluralism to ensure that peace endures in Sudan, both in the 
North and the South.
    Sharing oil revenues, the currency, citizenship, border, 
and the issue of Abyei are very crucial, but until now, the 
international community has been content to let the Sudanese 
parties delay making the difficult and necessary decisions to 
ensure a peaceful transition. In place of this unassertive 
mediation, the U.S. should jump-start a far more proactive 
international mediation, modeled upon the Naivasha peace 
process that produced the CPA.
    The Sudanese Government in August unveiled its own Darfur 
strategy that would nationalize or domesticate the political 
forces, and focus on the return of IDPs, development and 
implementation of justice locally. We believe that this plan is 
not only problematic but that it hides the government's true 
intention of seeking a military solution in Darfur.
    We believe the way forward is for the U.S. to have a 
decisive roadmap to secure peace in Darfur based on a sound 
diagnosis on why efforts to date have fallen short of the mark. 
This will require robust engagement with the mediation team, 
significant diplomatic and technical support, and securing 
constructive participation by the Europeans, China, and the 
regional actors.
    Finally, the U.S. should capitalize on the opportunity for 
political reform that South Sudan's secession presents for both 
the North and South.
    In the North, several of the processes that the United 
States should strongly support are specifically mandated under 
the CPA, including a constitutional review that involves public 
participation as well as popular consultation in the border 
states of Southern Kordofan and Blue Nile. Investing in civil 
society groups, independent voices, political party 
development, and other building blocks to a more democratic 
future are fundamentally steps that the U.S. can take toward 
preventing future conflict in Sudan.
    In the South, we see a fragile new state that is filled 
with potential. It is in the interest of the United States to 
help lay the foundation for good governance and invest in real 
institution and capacity building. The development of a strong 
Parliament and judiciary, as well as executive institutions 
that deliver services, share power, and transparently 
administer tax on oil revenue will be key to the peace in 
Southern Sudan.
    As the United States moves forward to urgently ensure that 
the two Sudans separate amicably but find the common ground 
necessary to sustain peace in a tumultuous corner of the world, 
we must do what we can to help deliver on the promises to all 
Sudanese.
    Thank you, Madam Chair.
    [The prepared statement of Mr. Ismail follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Chairman Ros-Lehtinen. Thank you, gentlemen. You have 
proven that you can be brilliant and succinct. Thank you.
    I will yield my time to the gentleman from Florida, Mr. 
Rivera.
    Mr. Rivera. Thank you very much, Madam Chair.
    Ambassador Williamson, thank you very much for being here. 
By the way, what years were you at the United Nations Human 
Rights Commission?
    Ambassador Williamson. Oh, it was 2004, I think it was.
    Mr. Rivera. I was there in the late 1980s and early 1990s, 
working for one of your predecessors, U.S. Ambassador Armando 
Valladares.
    Ambassador Williamson. I was assistant secretary for IO at 
the time, and Armando was working for me. He did a great job, 
pushed an important issue, and we should continue to put 
pressure on the island prison.
    Mr. Rivera. Thank you. And thank you not only for those 
words, thank you for your service.
    With respect to the roadmap, Ambassador, pursuant to the 
roadmap presented, the administration is poised to remove Sudan 
from the state sponsors of terrorism list, facilitate high-
level visits, exchange ambassadors, ease sanctions, and advance 
negotiations for debt relief in exchange for Khartoum meeting 
its own obligations under the Comprehensive Peace Agreement.
    United States leverage with regard to Darfur would be 
reserved to lifting sanctions that cannot be removed without 
legislative relief. In your opinion, does Khartoum care about 
the remaining sanctions? And, realistically, what leverage 
would the United States have, with regard to Darfur, if the 
United States pursues this course?
    Ambassador Williamson. First, a generic observation, 
Congressman: The less a regime deserves the mantle of 
legitimacy, the more they desire it. And those actions all 
raise into question the legitimacy of the government of 
Khartoum. So it is beyond whatever economic benefit or other 
benefits; it goes to their legitimacy within Sudan and outside.
    Second, as I noted earlier, I am concerned about being too 
anxious to provide incentives. Remember, the Comprehensive 
Peace Agreement was agreed to 6 years ago. When I was special 
envoy, it was my view, after meeting with the leaders often in 
Khartoum, meetings that drew the criticism from Senators Obama, 
Biden, and Clinton, that they had already made a decision at 
the time they signed CPA that they may be having to give up the 
South.
    I have noted that all the difficult issues that matter have 
not been resolved. We have a long way to go beyond the 6-month 
period when separation will become official before we know if 
those commitments will be made. And I also know, from my 
various positions in government, there is a bureaucratic 
momentum once you start the process. Again, to cite President 
Reagan, ``Trust but verify.'' We have to see more.
    Mr. Rivera. Thank you, Ambassador.
    In November 2008, Ambassador Lyman participated in a 
conference hosted by the Embassy of Sweden and the United 
Nations Association on the ``responsibility to protect.'' And 
according to a meeting summary, he suggested that Darfur would 
be excluded from obligations inferred from the responsibility 
to protect because the crimes were committed prior to adoption 
of the world summit outcome document in 2005.
    What is your position on this? And does the United Nations 
have a responsibility to protect marginalized populations in 
Sudan in the event that the regime in Khartoum decides to crush 
all remaining opposition following a vote for independence in 
Southern Sudan?
    Ambassador Williamson. I think the general responsibility 
to protect preceded the millennium summit outcomes document 
adopted in September 2005. Furthermore, I think when you look 
at the genocide in slow motion that continued after the 
adoption of that document, it is important for the United 
States and the international community to step up to its 
responsibility.
    Let me note, I am loathe to ever disagree with Ambassador 
Princeton Lyman, who I have the greatest respect for. But, in 
this case, I do think we have a responsibility. I have noted 
that as recently as 2 weeks ago Khartoum was involved in 
bombings in the South. They have been involved in bombings in 
Darfur. They continue to engage in coordinated attacks. It is 
less intense only because there are fewer targets of 
opportunity. This should be a concern. It is not delinked from 
the North/South nor the difficulties in the Nuba Mountains. We 
have to be more robust.
    And one of the disappointments has been that those 
violations of past agreements have occurred, innocent lives 
have died, and there has been a reluctance from the 
administration to hold to account and publicly criticize the 
perpetrators of these atrocities.
    Mr. Rivera. Thank you very much. Appreciate your service, 
again. Nice seeing you after 20 years.
    And I yield back the balance of my time.
    Chairman Ros-Lehtinen. Thank you so much.
    I am pleased to yield to the ranking member-designate of 
Africa, Global Health, and Human Rights, Mr. Payne of New 
Jersey.
    Mr. Payne. Thank you very much.
    Let me ask you, Mr. Ismail, what do you think of the 
prospects of a right to return for the people of Darfur? Has 
the government thought of any plan? Is it safe for some areas 
to have a right to return?
    For people to live in refugee camps for now until the next 
generation is wrong. So I would even like to see sanctions held 
until the government comes up with a plan of the right of 
people to return to their properties.
    Mr. Ismail. I am in agreement, Mr. Payne, because the 
Government of Sudan has put every obstacle in the way of peace 
in Darfur, and the refugees and the IDPs cannot return today to 
their regions, to their place of origin because, A, there is 
nothing there, after they have been burned and all the 
infrastructure that were there support to life was destroyed 
during the attacks. And, again, there is another reason, 
because most of these areas were occupied by people who, in 
some reports, we have seen that they don't even belong to 
Sudan, let alone belonging to Darfur and being citizens of 
Darfur.
    Number three, the violence still continues. And until 
today, contrary to the SOFA agreement, the agreement of the 
deployment of the U.N. troops, the Government of Sudan is still 
putting the obstacles in front of UNAMID and the U.N. troops 
that are supposed to protect those people and supposed to 
provide safe havens for those people who are willing to 
voluntarily return to the areas.
    Yes, the sanctions should remain until that issue is 
addressed in Darfur.
    Mr. Payne. Thank you very much.
    Ambassador Williamson, I remember meeting you in Abyei. The 
flames were still smoldering.
    What is your take on the East? We heard very little about 
the East, and, as we know, there are problems there. How do you 
see the government in Khartoum moving forward with the problem 
in the East, with the separation from the South? Will there be 
panicking? Will the East decide that they should have some 
protest against the government and do something perhaps that 
happened in Darfur when that began? What do you think about 
that part?
    Ambassador Williamson. Thank you, Congressman Payne.
    I think relevant to that is what has been the U.S. policy 
goal, a bipartisan policy goal in Sudan. And it is to bring 
sustainable peace, stability, and justice--justice that has 
been denied due to marginalization.
    And you are correct, in the East, in the Nuba Mountains, as 
well as Darfur, as well as in the South, they have been victims 
of those injustices. And if there is dismemberment of Sudan and 
the South is independent next July, you still have the root 
cause of injustices that will not be addressed. And I am loathe 
to be too generous until those issues are dealt with for those 
who have been subjected to violence as well as the injustice. 
And I think the instability and traumas will continue both in 
the East as well as in the West.
    Secondly, Congressman, there is a lot of talk about the 
stress that is going to be on the North after separation if it 
comes. And I acknowledge that that is true. There will be 
people that say the government has lost its legitimacy. The 
opposition will try to unite. The rebel movements may move more 
aggressively in Darfur or overreach. But there also will be 
stress in the South.
    Political competition has been suppressed because of a 
unity to try to move to CPA implementation. And I would suggest 
to you that the competition that will be unleashed in the next 
6 months, in the next 12 months, also will be severe in Juba, 
that it will be difficult for the Government of Southern Sudan 
to be excessive in its concessions, especially those that are 
aren't meritorious, and that the negotiators have to be mindful 
of that, as well.
    Thank you.
    Mr. Payne. In the seconds I have, Luis Ocampo said that 
Bashir should still be indicted. Where do you think that is 
going?
    Ambassador Williamson. I am very concerned. It is ironic 
that President George Bush, who opposed the ICC, was a stronger 
supporter for international accountability of the regime in 
Khartoum than this administration has been.
    Chairman Ros-Lehtinen. Thank you very much.
    Chairman-Designate Smith of the Africa, Global Health, and 
Human Rights Subcommittee.
    Mr. Smith of New Jersey. Gentlemen, thank you very much for 
your testimony and for your leadership.
    New York Times reporter Jeffrey Gettleman wrote a piece, 
``Roots of Bitterness in a Region Threaten Sudan's Future.'' It 
was in the New York Times on January 15th. And he talks about 
how most people in Abyei are armed to the teeth.
    My question, first, is, where have all those AK-47s gone 
that we believe the Chinese Government helped to facilitate, 
well in excess of 100,000? Are they there? Are we perhaps being 
a little too optimistic about the prospects of a peaceful 
transition here or what?
    Ambassador Williamson. I think, Congressman, if you are 
dealing with Sudan, you have to have a fault of optimism to be 
able to deal with such a difficult issue. So I have no fault 
there.
    But, as you know, if it is Human Rights First, if it is the 
small-arms commission of the U.N., the documentation of Chinese 
small arms has been irrefutable. And we can assume--there have 
been credible reports of the flow of those arms down into 
regions near the border, directed by Khartoum. It is a matter 
of great concern.
    I think, as Congressman Payne said, we were together in 
Abyei when the smoke was still coming up where the charred bed 
remains, where there were no homes as far as you can see. And 
then in the Gok, where 50,000 people were living under torn 
sheets during the rainy season when you couldn't walk without 
mud up to your ankles.
    The tragedy of Abyei goes on. It goes on because of the 
oil. The vote was good, but the tough issues lie ahead.
    Mr. Ismail. May I add, there is information that is coming 
from Abyei that the weapons are there and the violence can 
spark at any moment. You might have heard of this project that 
The Enough Project, with Harvard University and others, have 
launched. And these are the eyes in the sky that are going to 
show us what is happening in Abyei, so stay tuned.
    And, also, the small arms are there, and other open sources 
that are saying 55,000 of the 105,000 standing army of Sudan 
are in or around the area of Abyei. If that is not a spark that 
is going to start something, I don't know what it is. So we 
have to be vigilant, we have to work hard to avoid that clash 
from happening.
    Mr. Smith of New Jersey. Let me ask about the Sudanese 
slaves. I mentioned earlier about the 35,000. Do you have any 
recommendations on how to liberate them from the bondage that 
they live in in the North?
    Also, on debt, $35 billion to $40 billion of indebtedness, 
mostly to other countries like Saudi Arabia and Kuwait, but 
also, if my understanding is correct, about $2 billion to the 
U.S.
    When the administration talks about the roadmap, could you 
again say whether or not you believe--because debt is certainly 
a part of that--lifting the designation as a state sponsor of 
terror--and other issues, obviously, are in there, as well--
could you speak to that roadmap, if you would, how comfortable 
you are with it, either of you.
    And finally--I will run out of time. Why don't you go on 
those issues?
    Mr. Ismail. I will start with the roadmap in Darfur, as 
well in the South, because, as you know, all these issues that 
we are talking about are real issues, the border and the Abyei 
issue, as far as the South is concerned, the debt and currency 
and the citizenship.
    If you listen to the rhetoric coming out of Khartoum, that 
the Southern Sudanese are going to be stripped of their 
citizenship the day after announcing the secession--and I don't 
know how they are going to define a Southern Sudanese from 
another Sudanese that are living in the North today. And how 
about dual citizenship, something that the government gives to 
itself. Some ministers in the Government of Sudan today, they 
hold other passports from different countries, including this 
country. And they are not going to allow the Southerners who 
were born and raised in Sudan as such to have dual citizenship. 
I don't understand that. We have to work hard on these issues.
    And the roadmap for Darfur, we have to revitalize the peace 
process. We have to support the mediation. And we have to have 
to some high-level people who are involved in this, because the 
alternative of that is going to be violence in Darfur.
    Mr. Smith of New Jersey. Thank you.
    Ambassador Williamson. Quickly, Congressman, the most 
important thing with the slave tragedy is being very vigorous 
to push the rule of law, which doesn't exist. It is still the 
rule of position and power. And, second, shining light on it. 
That is the best disinfectant to human rights abuses. The 
United States and others should both engage in speaking out 
more aggressively.
    Chairman Ros-Lehtinen. Thank you very much.
    The gentleman from Missouri, Mr. Carnahan.
    Mr. Carnahan. Thank you, Madam Chairman. And let me first 
just say congratulations again. We are looking forward to 
working with you in this new Congress and with your leadership. 
And thank you for holding this timely and important hearing.
    I really wanted to focus my time and again acknowledge this 
referendum. I think it is cause for hope. The international 
community, especially the African Union, the U.N., have played 
important roles in implementing the Comprehensive Peace 
Agreement and were key facilitators of the referendum.
    I guess, with multilateral engagement, these efforts have 
been met with some criticism. But I would like to ask our two 
panelists here why it is important for the U.S. to continue to 
engage in these international organizations to leverage the 
work in Sudan. What have been some of the tangible benefits so 
far? And how might we, going forward, maximize these 
collaborative efforts?
    And if we could start with Ambassador Williamson, please.
    Ambassador Williamson. Thank you, Congressman.
    I think if we look at Sudan, we see a long history of 
various multilateral mechanisms making a contribution. The IGAD 
process itself, where it has seven Eastern African countries, 
the troika of the United States, Britain, and Norway, were 
instrumental in being the midwife of the Comprehensive Peace 
Agreement.
    Since then, there has been significant multilateral efforts 
with respect to peacekeeping, first, the African Union forces, 
then the U.N. forces, both in the South and in the West. They 
have not stopped violence. They can't. They don't have the 
capacity. The areas are too big. But they have crowded out the 
space for violence, and they have given some window for peace 
negotiations and discussions.
    I think you can also look at the assistance where it has 
been an international effort through the Sudan Consortium. I 
think that Congressman Rohrabacher--and he will probably raise 
it, about the burden sharing. The U.S. clearly has made a 
disproportionate contribution. Nonetheless, the Sudan 
Consortium has involved other countries, many other countries. 
Norway has taken the lead in coordination of the consortium, 
and there has been that assistance.
    But, finally, sir, if I could, let me note that, to the 
degree there has been humanitarian success in Sudan, whether it 
is in Darfur or in the South, the unsung heroes are the 
humanitarian NGO organizations, their workers, who are Sudanese 
as well as from countries all over the world, and the Sudanese 
nationals who also participated in that, some risking their own 
lives.
    So it has been a collective effort. I do think the U.S. 
deserves note not only for its lead on the humanitarian 
assistance and its pivotal role in the political process, but 
this is a victory for the Sudanese people. But there have many 
who have helped it along through international organizations 
and other mechanisms.
    Mr. Carnahan. Thank you, Ambassador.
    Mr. Ismail?
    Mr. Ismail. Thank you, Mr. Congressman.
    And I think the United States is standing to benefit a lot 
from the subject in Sudan. It is a huge country, as it stands 
today, 1 million square miles, bordering nine countries. If you 
just consider the western country of Chad there and its natural 
extension of Sudan in the Sahel and you put Nigeria into the 
equation, you will find about 520 million people living in and 
around Sudan. If Sudan unravels, then this whole population is 
going to be thrown in a tailspin.
    We have seen the spillover of the LRA into Sudan and the 
spillover of Darfur into Chad and the destabilization that has 
created. This is very important. Besides the $10 billion that 
we just talked about here that the United States is spending in 
the South, there are today over $1 billion that the United 
States is spending in Darfur to keep about 3\1/2\ million 
displaced alive. That is a huge burden.
    If the Sudan was left to its own devices--and we have seen 
violence of the scale that we have seen before in Darfur and 
the South--only God knows how much we are going to spend to 
keep some of these people alive in refugee camps, not in their 
homes.
    Mr. Carnahan. Thank you. I yield back.
    Chairman Ros-Lehtinen. Thank you so much, Mr. Carnahan.
    Mr. Rohrabacher?
    Mr. Rohrabacher. Thank you very much, Madam Chairman.
    And Ambassador Williamson was right. I would like to focus 
a little bit on the disproportionate contribution that the 
United States is making, not only in Sudan, but this, I think, 
exemplifies many of the crises, humanitarian crises, that we 
find around the world.
    If there is anything the last election should have told the 
rest of the world, it is that the United States can no longer 
afford to do this. We are going broke. And once our economy is 
broken by this irresponsibility that we have had, then we will 
be able to help no one--not our own people, not other people in 
crisis. The world needs to take that into consideration, notice 
it, and plan their futures proportionally.
    I would suggest that we--that is not to say that in Sudan 
and other places that we have seen these horrible tragedies 
take place, the heartrending murder of innocent people--we care 
about that. But we can no longer afford to carry as big a 
burden as we have.
    And what makes it worse, perhaps--and, Ambassador 
Williamson, you seem a bit pessimistic that, after this $10 
billion of investment that we have made, that we will actually 
succeed. It is a rough road to go.
    Let me ask you, is the roadmap that has been set down--do 
you consider that to be adequate? And if it is adequate, has it 
been enforced and followed? Or the roadmap will not succeed 
because it does not address the issues that need to be 
addressed?
    Ambassador Williamson. Congressman Rohrabacher, if I could 
make a few points that I think are relevant.
    First, it is noteworthy that when the regime came to power 
in 1989, total exports were $500 million. They grew to $9.5 
billion by 2008, almost all from oil, which is why the oil 
revenue sharing is crucial.
    Second, with that sort of money coming in, the Government 
of Sudan, who designed the genocide in Darfur, as of the end of 
2008 their total contribution to the humanitarian needs of the 
people in Darfur was $30 million. I think that is not 
irrelevant to the considerations of how much faith we should 
have.
    Secondly, China gets 6 percent of its imported oil from 
Sudan. They have now tipped, where they understand it is in 
their interest to have stability. They should step up more for 
humanitarian assistance.
    The larger question you raised on humanitarian assistance 
is beyond my purview. It is up to the 435 of you and the 
hundred across the way to make those decisions, ultimately.
    But I do think there is an impulse in America that is 
worthy, that is part of our mission, that recognizes whether it 
is human rights, humanitarian assistance, we have an obligation 
to step up. But we should be tough-minded about it, get others 
to step up too, especially in these times of economic peril.
    And, finally, let me just say on the roadmap, on good days 
I am optimistic, but my experience teaches me to maybe be a 
little skeptical and cynical. And I think the talk of 
incentives without the talk of coercion, without the talk of 
steel, without the talk of being tough, is a matter of great 
concern. As Bismarck said, diplomacy without coercion is like 
sheets of music without instruments.
    Mr. Rohrabacher. And no amount of humanitarian, you know, 
assistance is going to increase the standard of living of 
anybody for any length of time unless it is accompanied by a 
democratization and a change in character of a regime that is 
capable of the type of violence that you have just described. 
Isn't that correct?
    Ambassador Williamson. Yes, Congressman. I think it is 
important to note, in the South, not only do they have 80 
percent of this oil revenue, but they have other mineral 
resources, and they have among the richest agricultural land 
anywhere, outside of Illinois, which of course has the best.
    Mr. Rohrabacher. Let me note before my time runs out, which 
is one moment, and that is, Madam Chairman, if we are going to 
help people in the future and they have this potential wealth 
that exists, it is not wrong for us to suggest we are going to 
help you in this crisis but we expect to be paid back one way 
or the other.
    Chairman Ros-Lehtinen. Thank you.
    The gentleman from Ohio, Mr. Chabot.
    Mr. Chabot. Thank you, Madam Chair.
    Just a couple of questions briefly.
    Could you discuss the roles of both the African Union and 
the Arab League in all of the things that we are talking about 
here this afternoon, and what do you anticipate it will be in 
the near future?
    Ambassador Williamson. Quickly, my experience is it has 
been uneven. The African Union, understandably, is worried 
about countries being split. There are only two African 
countries that have just two ethnic groups. Most of them have 
multiple ethnic groups. They are concerned about a contagion, 
as are the nine neighbors. But I think, now that they have 
understood the inevitability of this, they have played a more 
constructive role. The Arab League was unhelpful, as was the 
African Union, on questions of accountability, but they have 
been helpful on some of the development issues.
    And Qatar, in particular, should be singled out and the 
minister of state for foreign affairs, Al Mahmoud, for their 
extraordinary leadership in trying to get constructive 
discussions going on Darfur.
    So, could they have done more? Yes. Should they have done 
more? In my opinion, yes. Do we wish they had done more? 
Absolutely. But they have made contributions and more lately 
than they did a few years ago.
    Mr. Chabot. Thank you.
    And then, finally, what can we do to ensure that the 
corruption, which is endemic in much of Africa, doesn't take 
root--although, certainly, there is already corruption in 
Southern Sudan--but doesn't thrive in what may soon be Africa's 
newest country.
    Ambassador Williamson. Transparency, transparency, 
transparency are your first three priorities. Second, good 
governance will require helping train a larger coterie of 
people to run the agencies and departments of a newly 
independent Southern Sudan. And, third, some good green 
eyeshades from outside donors and others to try to monitor it.
    And, ultimately, as Congressman Rohrabacher indicated, if 
there is, in fact, a democratic process of accountability, that 
is a useful and often determinative aspect in corruption 
fighting.
    Mr. Chabot. Thank you.
    Thank you. Madam Chair, I yield back the balance of my 
time.
    Chairwoman Ros-Lehtinen. Thank you very much.
    Thank you to the presenters. Thank you to our panelists, 
and great members.
    Tomorrow, at 10:30, in this room, we will be having a 
briefing on China.
    And, with that, this briefing is adjourned.
    Thank you, gentlemen.
    [Whereupon, at 6:32 p.m., the committee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


     Material Submitted for the Hearing Record<greek-l>Notice deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               <greek-l>Minutes deg.

                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <greek-l>Payne statement deg.
                               __________

                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
